                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: A14020008                                                                        Page 1 of 1



                Our office received information that a researcher (Subject) 1 was currently the Subject of a
         University investigation2 and that this researcher's publically available dataset3 was used within
         NSF-funded projects. 4 We were also told that a currently funded NSF project using the dataset
         was planning to redo the already completed portions of the project using a different dataset.

                 A University official5 confirmed that the Subject was being investigated for allegedly
         removing millions of files from a privately-funded University center6 and appropriating them
         without permission for his own personal use, including development of the public dataset. He
         said the data was not fabricated or falsified, and that the University would not ask researchers to
         stop using the data.

                 We spoke with a researcher7 on the currently funded NSF project that used the dataset.
         He said that the NSF project originally proposed creating its own dataset, but switched to the
         Subject's dataset upon learning it was similar to the one the project proposed. He said that, even
         before learning of the investigation, they had considered restarting the project because the
         Subject would not provide them with raw source files. He also stated that he did not suspect the
         data was fabricated or falsified.

                   Our review further found that the Subject has never received direct NSF funding.

                Based on the above findings, although the allegation of intellectual theft remains open, this
         matter seems outside of our jurisdiction. Accordingly, this case is closed with no further action
         taken.




NSF OIG Form 2 (11102)
